  Department of Health and Human Services
          OFFICE OF
     INSPECTOR GENERAL




NATIONAL    MARROW     DONOR PROGRAM

        FINANCING   DONOR CENTERS




                        # 0EI-01-95-O0123
                        OFFICE      OF INSPECTOR            GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, evaluations, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and managementproblems and recommends
legislative, regulatory, and operational approaches to correct them.




                OFFICE      OF EVALUATION              AND INSPECTIONS

The OIG’SOffice of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections)that focus on issues of concern to the Department, the

Congress, and the public. The inspection reports provide findings and recommendationson the

efficiency, vulnerability, and effectivenessof departmentalprograms.





OEI’SBoston Regional Office prepared this report under the direction of Mark R. Yessian, Ph.D.,

Regional Inspector General. Principal OEI staff included:


Boston Region                                                  Headquarters

Russell W. Hereford, Ph.D., Project Leader                     Alan Levine, Program Specialist

Elizabeth Robboy, ProgramAnalyst



To obtain a copy of this report, contact the Boston Regional Office by telephone at

(617) 565-1050 or by fax at (617) 565-3751.

Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




  ONAL MARROW                 DONOR PROGRAM

      FINANCING           DONOR CENTERS




          +
              4’     “$
          $                 JUNE GIBBS BROWN
         ~.                 Inspector General
          s
           % #
            %++
              %d~~             DECEMBER 1996
               >
                               # OEI-01-95-O0123

               EXECUTIVE                                        SUMMARY

PURPOSE

To help assess the relative efficiency and effectiveness of donor centers paid on a contract
basis and those paid on a fee-for-service basis in the National Marrow Donor Program.

BACKGROUND

The Natioml Marrow Donor Program (NMDP)is a nonprofit organization based in
Minneapolis, Minnesota that finds matching donors for patients seeking a bone marrow
transplant. The NMDPoperates the congressiomlly authorized marrow donor registry
under contract with the Health Resources and Services Administration (HRSA).

The NMDPuses two methods to finance the donor centers that recruit volunteers to join the
registry. Thirty-five donor centers are paid through a cost-based contract that is
negotiated between NMDPand each center; 22 contract centers are paid through HRSA
funds, and 13 from NMDPprogram income. Sixty-two centers are paid on a fee-for-
service basis for file maintemnce, donor recruitment, and donor search activities; fee-for-
service centers are all paid using NNIDPprogram income, not HRSAcontract funds. This
report is based on a review of data maintained by the NMDP.

FINDINGS

For the year ending April 30, 1995, NMDP’Spayments to the 35 contract donor
centers comprised 80 percent of payments to all donor centers.

       The 35 contract centers received $11.8 million.

       The 62 fee-for-service centers received $2.9 million.


The contract centers are more expensive to NMDP than fee-for-service centers on five
of six key funding measures.




      II Derdonor                                           I     $    12.74 I    $    8.89   II

      IIper net new donor recruited
                                                            I
                                                                      60.28
                                                                              I
                                                                                      35.64
                                                                                              I
      IIper request for first level followuptesting
                                                            I
                                                                      423
                                                                              I
                                                                                      323
                                                                                              I
      IIper donor retainedat first level followuptesting              618             426
                                                                                              I
       per request for confirmatorytesting                        2,044           1,522
                 (differencenot statisticallysignificant)
       per donor retainedat confirmatorytesting                   2,654           1,871


                                                       i
Despite receiving higher per unit payments, the performance of contract centers is
lower than that of fee-for-service centers in overall recruitment and in donor
retention. While contract centers perform better in minority recruitment, both types
of centers could improve their performance on this measure.



                            percentof total NMDP funding     80 %                20 %
   OVERALL RECRUITMENT:     percentof donorson registry     74                   26
                          percentof newdonorsrecruited      70                   30
   MINORITY RECRUITMENT:

   (percentof centersthat exceed                Blacks
     38                   28
   local~ouulationdistribution)               Hispanics
    29                   12
   DONOR RETENTION RATE:              first levelfollowup   68                   76
                                     confirmatorytesting    77                   81



RECOMMENDATIONS

The Health Resources and Services Administration and the National Marrow Donor
Program should reexamine the method used to finance donor centers. The goal of
this reexamination should be development and implementation of a financing approach
containing incentives that encourage an efficient and effective donor center system. Such
a system should emphasize recruitment and retention of donors, and it should place
particular emphasis on donors from racial and ethnic minority groups.

Because revising the financing system may take some time, we urge the NMDPand HRSA
to commence this effort immediately. In addition, we recommend that the following short
term actions should be undertaken:

HRSA  should replicate the analysis conducted in this report, or a similar financial
analysis, at the close of each fiscal year.

HRSA   and the NMDP should develop procedures for conducting a performance audit of
donor centers and a plan for implementing performance audits throughout the
network. The plan for conducting and implementing these audits should be in place so
that the audits, where necessary, can be carried out within the first year of the
forthcoming contract.

HRSA  should collaborate with the NMDPto develop efficiency measures and procedures
for requiring centers to meet these measures. These measures and procedures should
be implemented within the first year of the forthcoming contract.




                                                   ..
                                                   11
COMMENTS ON THE DRAFT REPORT

We received comments on the draft report from the Health Resources and Services
Administration (HRSA), who in turn requested comments on the report from the National
Marrow Donor Program (NMDP).

HRSAand NMDPcite a number of additional factors that should be considered in
developing a multivariate analysis model that would provide additional information on
financing donor centers. We agree that analysis of these factors could be useful.
However, we still urge reexamination of the financing system. We continue to believe
that the financing system should contain incentives that encourage an efficient and
effective donor center system.

HRSA and NMDPgenerally agree with our other recommendations.      We adopt their
suggested revisions in the language of them. But we also emphasize that these
recommendations shouId be implemented within the first year of the new contract. We
are concerned that an open-ended time frame could result in unnecessary delays.




                                           .. .
                                           111
                     TABLE                 OF        CONTENTS

                                                                                                     PAGE

EXECUTIVE SUMMARY


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


FINDINGS


 � Total paymentstodonor          centers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..4


 � Contrac tcenter smoreexpensive toNMDP . . . . . . . . . . . . . . . . . . . . . . . ...4

 � performance ofcontract centers lower . . . . . . . . . . . . . . . . . . . . . . . . . . ..6


RECOMMENDATIONS                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..8


COMMENTS ON T~D~                        REPORT         . . . . . . . . . . . . . . . . . . . . . . ...10


APPENDICES


A: Detailed payment andretentiondati              . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


B: Methodological notes         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. B-1


c:   Textofcomments       onthedraft     repoti     . . . . . . . . . . . . . . . . . . . . . . . . . .. C-1


D: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .-D-1

                          INTRODUCTION

PURPOSE:


To help assess the relative efficiency and effectiveness of donor centers paid on a contract

basis and those paid on a fee-for-service basis in the National Marrow Donor Program.


BACKGROUND:


Bone Marrow Transplantation


Bone marrow transplantation is a treatment for blood borne diseases such as leukemias

and lymphomas. About 16,000 people are diagnosed each year with leukemias and other

fatal blood diseases. 1 Many of these people could benefit from a bone marrow

transplant, a procedure in which the patient’s diseased bone marrow is destroyed and

marrow from a healthy donor is infused into the patient’s blood stream. Bone marrow

produces platelets, red blood cells, and white blood cells, the agents of the body’s immune

system. For a bone marrow transplant to be successful, the patient’s and donor’s antigens

must match as closely as possible. About thirty percent of the time the patient finds a

sibling with matching antigens. In the other seventy percent of cases the patient must seek

an unrelated donor.


Three pairs of blood cell proteins, known as the Human Leukocyte Antigen (HLA)-A,

-B and -DR, are important in determining whether a match will be successful. One antigen

in each pair is inherited from an individual’s mother, the other from the father. Because

there ar~ numerous antigens at each HLA-A,-B, -DR locus, more than 600 million

combinations are theoretically possible.2


The National Marrow Donor Program

The National Marrow Donor Program (NMDP) is a nonprofit organization based in
Minneapolis, Minnesota. The NMDPoperates the Congressionally authorized marrow
donor registry under contract with the Health Resources and Services Administration
(HRSA). The contract is fimded at $40,471,000, from July 1994 through April 1997.

The NMDPbegan operations in September 1987 as a non-profit organization fimded
through a contract from Office of Naval Research. The NMDPwas created through a
cooperative effort of the American Association of Blood Banks, American Red Cross, and
Council of Community Blood Centers. The NMDPbegan search operations with 10
transplant centers, 49 donor centers and 8,000 donors listed on the registry. As bone
marrow transplantation came to be seen as viable technique, the U.S. Navy recognized
that it was inappropriate for the military to maintain a civilian registry. In 1989,
responsibility for the contract was transferred to the National Heart, Lung, and Blood
Institute in the National Institutes of Health. Contract oversight for the NMDPwas again



                                               1

transferred in 1994, this time to HRSAin recognition that NMDPwas a service delivery
program, rather than a basic research initiative.

The major functions of the registry are to: (1) “establish a system for finding marrow
donors suitably matched to unrelated recipients for bone marrow transplantation;”
(2) “recruit potential donors;” and (3) “increase the representation of individuals from
racial and ethnic minority groups . . . in order to enable an individual in a minority
group, to the extent practicable, to have a comparable chance of finding a suitable
unrelated donor as would an individual not in a minority group. ” In addition, the statute
calls for a system of patient advocacy, support studies and demonstration projects, and the
collection and dissemination of data concerning bone marrow transplantation and
collection.3

The NMDPaccredits donor centers that recruit volunteers to join the registry. As of
October 1995, the registry contained almost 1.5 million donors in 97 domestic donor
centers, and an additional 450,000 donors from 6 foreign centers. Eighty-one of the
domestic centers are blood centers, either Red Cross-affiliated or part of community blood
centers; 13 centers are departments of hospitals, and 3 are free standing centers. Six of
the domestic centers have more than 50,000 donors on their list; another 35 centers have
between 10,000 and 50,000 donors each. The remaining 56 centers have fewer than
10,000 donors.

Financing Donor Center Operations

The cost of NMDP’S3-year contract with HRSAis $40,471,000. This funding covers only
a portion of the NMDP’Soperations, which has a total annual budget of approximately $65
million. Over the 3-year contract period, $23,287,969 million in HRSAfinds is allocated
for 22 cost-based contract donor centers and $1,836,373 million is allocated for 3 cost-
based recruitment groups. The remaining HRSAcontract funds go for general operational
costs for the registry and for research.

The NMDPfunds participating donor centers and recruitment groups through two distinct
approaches, cost-based contracts and fee-for-service payments.

Conrract reimbursement. Thirty-five donor centers are paid through contracts. Twenty-
two of these centers are reimbursed through HRSAfunds, and 13 centers are reimbursed
by NMDPthrough program income. Contract centers are paid on a prospectively
negotiated cost-based contract. Payments to these centers cover direct expenses, such as
labor and fringes, office supplies, travel, and donor expenses. These centers also receive
a negotiated overhead amount that covers items such as rent and indirect administrative
costs. The NMDPalso reimburses cost based centers for certain supplies related to testing
for donors who have been identified as potential matches.4

Fee-for-service payment.   Sixty-two centers are paid on a fee-for-service basis. These




                                             2

centers are paid only for specified activities. The fee-for-service payments come from
NMDPprogram income, not from HRSAfunds. The payments fall into three broad
categories:

       - File maintenance and support payments at $25,000 for every 20,000 donors on
               the center’s list;
       - Recruitment fees at $10 for each new white donor, $28 for each new donor from
               a racial or ethnic minority group, and $2 per donor for data entry following
               a recruitment drive;
       - Search-related expenses, covering both staff time and supply costs for donors
               who have been identified as potential matches.5

SCOPE and METHODOLOGY

This report addresses the domestic donor centers only. We compare the 35 contract
centers with the 62 fee-for service centers. Our report excludes the U.S. Navy’s Bill
Young Marrow Donor Center, because that center is funded through a budget from the
Department of the Navy, rather than the contract and fee-for-service mechanisms that this
report analyzes.

This report is one of four companion reports addressing the National Marrow Donor
program. The other three reports are: National Marrow Donor program: Progress in
Minori~ Recruitment (OEI-01-95-00120); National Marrow Donor Program: Effectiveness
in Retaining Donors (OEI-01 -95-0012 1); and National Marrow Donor Program:
Geographic Overlap Among Donor Centers (OEI-01-95-00122).

We used four primary data sources in this report:

1) Aggregate statistical data maintained by NMDPon donor center activities regarding
donor recruitment and donor retention.

2)	 Aggregate financial data from NMDPon payments made to the donor centers for the
fiscal year running from May 1, 1994 through April 30, 1995.

3) A mail survey of the 97 domestic donor centers. We received 88 responses, a
response rate of 91 percent.

4)	 Site visits to donor centers in California, Massachusetts, Minnesota, New Jersey,
North Carolina, and South Carolina.

Appendix B provides a more detailed description of our methodology.

We conducted this study in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                              3

                                     FINDINGS


FOR THE YEAR ENDING APRIL          30, 1995, NMDP’S PAYMENTS TO THE 35 CONTRACT
DONOR CENTERS COMPRISED           80 PERCENT OF PAYMENTS TO ALL DONOR CENTERS.

  .       The 35 contract centers received $11.8 million:

            �     $6.2 million (53 percent) for staff compensation;
            E     $0.7 million (6 percent) for direct supplies;
            �     $4.9 million (42 percent) for overhead.

The contract centers are the largest centers in the program, in terms of number of donors,
requests for follow-up activities, and actual marrow collection. The range of total
payments to centers for this 12-month period was $82,151 to $1,294,451, with a median
payment of $242,797. All but three contract centers received larger payments than the
highest paid fee-for-service centers.

  .       The 62 fee-for-service centers received $2.9 million:

            �     $2.7 million (92 percent) for staff compensation;
            �     $0.2 million (8 percent) for direct supplies.

The range of total payments in the fee-for-service centers was $6,644 to $114,375, with a
median of $40,604. Out of 62 centers, all but 9 received lesser amounts man the lowest
paid contract centers.

THE CONTRACT         CENTERS ARE MORE EXPENSIVE TO NMDP THAN FEE-FOR-SERVICE
CENTERS.


We present summary data on different aspects of payments to donor centers in an effort to
help assess the overall cost-efficiency of donor centers in the two categories. Appendix A
provides more detailed data on each of these factors. With one exception (cost per CT
request made), all the differences are statistically significant.

      �   Payments per donor:

             F	   Payments per donor listed on the registq on April 30, 1995 averaged
                  $12.74 in the contract centers, versus $8.89 in the fee-jor-service centers.

We calculated total payments made by NMDPover the course of the year divided by the
number of donors on each donor center’s list at the close of the year. This measure
provides an indication of comparable costs that donor centers incur in recruiting donors
and in maintaining the current donor list.




                                                 4

       F	       Payments per new donor recruited in the year ending April 1995 averaged
                $60.28 inthe contract centers, versus $35.64 inthefee-for-semice center.

This measure defines payments for the net number of new donors added to each center’s
list during the year, thus reflecting cost of new activity over that time period.

  .    Payments per donor retained at first stage follow-up testing       (DR   testing):

The patient’s physicians at the transplant center select potential donors from the formal
search report for fhrther compatibility typing. These requests are sent to the NMDP
coordinating center, which then notifies the appropriate donor center that one of their
donor center’s code numbers has been selected. The donor center contacts that donor for
first level followup testing (DR) to type the donor’s HLA-DRantigens.

        �	       Payments per DR request made in the year ending March 1995 averaged
                 $423 in the contract centers, versus $323 in the fee-for-service centers.

        �	       Payments per DR request actually completed averaged $618 in the contracl
                 centers, versus $426 in the fee-for-service centers.

  .    Payments per donor retained at second stage follow-up testing         (CT   testing):

If the donor’s HLA-DRantigens match the patient’s, the patient’s physician may decide that
the donor represents a potential match. In that case, the physician, through NMDP,will
ask the donor center to contact the donor for second level testing, called confknatory
testing (CT).

        �	       Payments per CT request made in the year ending March 1995 averaged
                 $2,044 in the contract centers versus $1,522 in the fee~or-service centers.

The difference between contract and fee-for-service centers in payments made per CT
request made was not statistically significant.

        F	       Payments per CT request actually completed averaged $2,654 in the contract
                 centers, versus $1,871 in the fee-for-service centers.

   .    One factor leading to higher payments for contract centers is explicit inclusion
        of administrative overhead in the payment rates that these centers receive.

Overhead     costs in the contract centers ranged from 20 percent to 51 percent of total
payments     made, with a median of 42 percent. In two centers, payments for overhead
exceeded     50 percent of total payments; in 4 centers overhead payments exceeded payments
for direct   staffing costs.

These overhead payments averaged:



                                                5

  .     $5.39 per donor on their lists.

  �     $26.03 foreach new donor.

  .     $180 per DR request.

  .     $264 for each DR request filled.

  �     $850 per CT request.

  �     $1,153 for each CT request filled.


Responses to our survey indicate tiattie parent imti~tions of fee-for-semice centers,
rather than the NMDP,are paying the substantial share of overhead for the fee-for-service
donor centers. 84 percent of the fee-for-service centers reported that they receive
financial support for center staff (such as the center director’s salary) from their parent
institution, versus 37 percent of the contract centers. b

DESPITE THE HIGHER PER UNIT PAYMENTS          TO CONTRACT     CENTERS, THE OVERALL
PERFORMANCE      OF CONTRACT     CENTERS IS LOWER THAN THAT OF THE FEE-FOR-
SERVICE CENTERS ON THREE OF FOUR EFFECTIVENESS MEASURES WE DEVELOPED.


We developed four effectiveness measures, two related to recruitment and two related to
donor retention.

Recruitment Effectiveness Measures

   �     Overall Recruitment. Contract centers, which receive 80 percent of hMDP
        j?nancial support, listed 74 percent of donors on the registry in April 1995, and 70
        percent of the increase in donors from May 1994 through April 1995.

On April 30, 1995, the domestic registry contained 1,234,272 donors,7 up from 964,790
12 months earlier. Contract centers listed 908,765 of these donors (74 percent), while
325,507 (26 percent) were on the lists of fee-for-service centers.

Of the 269,482 new donors added to the list, 188,320 (70 percent) were recruited by
contract centers, and 81,162 (30 percent) by the fee-for-service centers.

   �	   Minority Recruitment. Contract centers were more likely than fee-for-service
        centers to have a proportion of minority donors that equals or exceeds the
        propotiion of minorities living in their service area, although both types of centers
        could improve their pe~ormance on this measure.

           F	   Thirty-eight percent of the 35 contract centers have recruited a higher
                proportion of blacks than reside in their service area, versus 28 percent of
                the 62 fee-for-service centers.

           �	   Twenty-nine percent of the contract centers have recruited a higher
                proportion of Hispanics than reside in their service area, versus 12 percent
                of the fee-for-service centers.



                                               6

On April 30, 1995, the domestic registry contained 284,658 minority donors. Of these
minority donors, 213,955 (75 percent) were in contract centers, 70,703 (25 percent) in
fee-for-service centers. Contract center lists comprised 77 percent of black donors, 70
percent of Asian/Pacific Islander donors, 78 percent of Hispanic donors, and 74 percent of
American Indian/Alaska Native donors.

One explanation we heard for the success of contract centers in this area is the flexibility
their contracts give them to hire staff and focus on minority recruitment. One donor
center that had recently moved to a contract from fee-for-service payment described this
as follows: “It is so much easier to recruit now. We are able to attend minority related
conventions because we have a budget for them. ”

Our companion report, National Marrow Donor Program: Progress in Minority
Recruitment (OEI-01-95-00120), provides additional information on our assessment of the
NMDP’sperformance in increase the representation of donors from racial and ethnic
minority groups on the registry.

Donor Retention Measures

The NMDPidentifies four reasons that an individual may not come forward for fi.uther
testing at either DR or CT: unable to contact donor, donor not interested, donor medically
deferred, donor temporarily unavailable. Our companion report, National Marrow Donor
Program: Effectiveness in Retaining Donors (OEI-01-95-00121), provides an assessment
of the overall effectiveness of the program in retaining donors at both the DR and CT
stages.

  �	   Retention at DR testing. l%e contract centers retained 68 percent of donors at DR
       testing, versus 76 percent in the fee-for-service centers.

Donor centers received 36,170 requests for DR testing in this l-year period. Contract
centers received 27,211 (75 percent) of these requests, and were able to fill 18,540 (68
percent of requests). These comprised 73 percent of all DR requests filled.

Fee-for-service centers filled 6,786 out of 8,959 requested (76 percent).   These comprised
27 percent of all DR requests filled.

  �	   Retention at CT testing. The contract centers retained 77percent of donors at CT
       testing, versus 81 percent in the fee-for-service centers.

Donor centers received 7,667 requests for CT testing in this l-year period. Contract
centers received 5,766 (75 percent) of these requests, and were able to fill 4,441 (77
percent of the requests that they received. These requests comprised 74 percent of all CT
requests filled.

Fee-for-service centers filled 1,546 out of 1,901 requested (81 percent).   The 1,546
comprised 23 percent of all CT requests filled.


                                              7
                    RECOMMENDATIONS

This report raises a number of concerns about donor center costs and performance. Most
importantly, we found that centers paid on a contract basis are more expensive to the
program, primarily because payments to these contract centers includes additional funding
for overhead. Had this higher expense also led to higher performance, it would be
possible to justify the additional costs. However, we found the opposite to be true:
contract centers’ performance actually was lower than that of fee-for-service centers based
on three of the four performance measures we developed.

We base our recommendations on the underlying premise that payment levels and methods
should support those activities that produce the desired results. In the case of donor
centers, we believe that payment policies should support recruitment and retention, the
activities that deliver the product this program is designed to effectuate--bone marrow
donors.

THE HEALTH    RESOURCES AND SERVICES ADMINISTWTION           AND THE NATIONAL     MARROW
DONOR PROGRAM      SHOULD REEXAMINE      THE METHOD USED TO FINANCE DONOR
CENTERS. The goal of this reexamination should be development and implementation of a

financing approach containing incentives that encourage an efficient and effective donor

center system. Such a system should emphasize recruitment and retention of donors, and

it should place particular emphasis on donors from racial and ethnic minority groups.


We offer two options for consideration. We encourage HRSAand NMDPto examine and

evaluate other options that would achieve the goals we cite above.


The program could move to a fee-for-service payment schedule for all centers, with

incentives built in to reward centers with high retention. Such an approach could build on

the system currently in place, with the important addition of a mechanism that encourages

high levels of donor retention.


The program could consider a bid system. Each donor center would bid for and negotiate

a competitive price which it would be paid for recruiting donors to the registry and for

producing donors in response to requests for donation. Any such approach would also

contain performance standards that the center would be required to achieve.


We recognize that any such effort will take some time to develop, and we urge the NMDP

and HRSA to commence its development immediately. Therefore, in addition to revising

the payment system, we believe that the following short term actions should be

undertaken:


HRSA SHOULD REPLICATE       THE ANALYSIS   CONDUCTED IN THIS REPORT,       OR A SIMILAR
FINANCIAL    ANALYSIS,   AT THE CLOSE OF EACH FISCAL YEAR.         We analyzed data for the
first year of the contract with HRSA. It should be relatively easy for HRSAto replicate this
analysis using cost, donor list, and retention data from subsequent contract years to


                                              8
determine ifthe patterns weidentified inthis report continue. WeencouragemsAto
conduct this analysis retroactively for the fiscal year ending April 30, 1996, and in future
years. We believe that monitoring these costs is one important way to establish a baseline
against which future changes can be measured. Monitoring also should provide
information that will be useful for continuous quality improvement purposes.

HRSA AND NMDP SHOULD DEVELOP PROCEDURES FOR CONDUCTING                 A PERFORMANCE
AUDIT OF DONOR CENTERS AND A PLAN FOR IMPLEMENTING              PERFORMANCE      AUDITS
THROUGHOUT      THE NETWORK.       The plan for conducting and implementing these audits
should be in place so that the audits, where necessary, can be carried out within the first
year of the forthcoming contract. In the course of our review we found that some centers
had high costs on all measures at which we looked. We believe that the contractor should
determine if these centers continue to show these high costs, using a framework that is
developed in consultation with HRSA. We urge the contractor to review these centers’
operations closely to determine whether the amount of money paid to them is yielding the
results desired, in terms of the number of donors on their list, their retention rate, and
their performance on minority recruitment. To help ensure cost efficiency and
effectiveness within the registry, we believe that arrangements for these audits should be
in place as quickly as possible within the new contract period.

HRSA SHOULD COLLABORATE        WITH NMDP TO DEVELOP EFFICIENCY          MEASURES AND
PROCEDURES FOR REQUIRING        CENTERS TO MEET THESE MEASURES.          THESE MEASURES
AND PROCEDURES SHOULD BE KMPLEMENT’ED WITHIN            THE FIRST YEAR OF THE
FORTHCOMING     CONTRACT.      We believe that the contractor should continue to focus on
continually improving the operation of this program. The contractor already has in place
some performance indicators around donor registration and donor retention. One option
that the contractor might consider as it seeks efficiency in the program is linking ongoing
funding to the efficiency and effectiveness of donor centers. We believe that simple
indicators of efficiency and effectiveness, such as those we used here or others, are
readily available. We also believe that, if HRSAis to hold the contractor accountable for
performance and if the contractor is to hold the donor centers accountable for
performance, any such measures must be in place as early as possible within the
forthcoming contract period.




                                              9

COMMENTS                       ON       THE         DRAFT             REPORT

We sought comments on the draft report from the Health Resources and Services
Administration (HRSA),the Assistant Secretary for Plaming and Evaluation (ASPE),and
the Assistant Secretary for Health (ASH). In addition, HRSAsought comments on the
report from the National Marrow Donor Program (NMDP). They made similar comments
about the substance of our recommendations, and our response to their comments reflects
that similarity.

HRSA agrees with the need to reexamine the financing method, but raises a number of
points about the complexity of such an analysis. We recognize that options other than
those presented in the draft report may be appropriate. We encourage HRSAand NMDPto
consider any other approaches that may be worthwhile. Our bottom line is that the
financing system should contain incentives that encourage an efficient and effective donor
center system, with respect to recruitment and retention of donors, and with particular
emphasis on donors from racial and ethnic minority groups.

HRSA and NMDPcite a number of additional factors that should be considered in
developing a multivariate analysis model that would provide additional information on
financing donor centers. In essence, the agency and the NMDPare saying that the issue is
more complicated than we present. Clearly, a multivariate model would shed further light
on factors that might be considered in developing a payment system. Toward that end,
we are pleased to learn that NMDPis now consolidating multiple data sets, which should
enable the organization to better understand these factors and their contribution.
Certainly, a reexamination of the financing system will require that HRSAand the
contractor consider all important aspects of the system.

HRSA and NMDPgenerally agree with our other recommendations, although they suggest
some revisions in them. We adopt the proposed changes, but now we recommend that
they be implemented within the first year of the new contract. We believe that such a
time frame is adequate to achieve these changes, and that HRSAand NMDPshould focus on
reforming the current financing system as quickly as is feasible.

HRSA and NMDPraise a technical question about the amount paid in FY 1995 to contract
and fee-for-service centers. We revised Appendix B (Methodological Notes) to explain
how we derived our figures, based on data provided by NMDP. We continue to believe
that the figures used in our draft report are appropriate for the analysis we performed.

ASH and ASPEprovided no comments on this report.




                                             10

                                    APPENDIX                              A

         DETAILED               PAYMENT                      and RETENTION                         DATA
I
                                                 Table 1


!II                                   I
                                            Payments per Donor

                                                   I

                                      I Mean I Standard
                                                                     I             I

                                                                     I Median I Minimum                 Maximum




                  Contract Centers        $12.74              $3.39 I $12.89 I             $7.73         $21.46
            Fee-for-service Center I $8.89 ~                  $4.14 I      $9.06   I       $3.31         $24.81




II                Contract Centers I $60.28 I                $42.62 I $61.63 I             $15.73        $226.08
           Fee-for-service Centers        $35.64            $28.65   I $39.04 I            $17.98        $164.39
     Contractcenters: n = 34 (onecontractcenterexcludedfrom calculationsbecauseit was an extremeoutlier)
     Fee-for-servicecenters: n=62                                                             ***p < .01
                                                                                                    ****p < .001




                   Contract Centers I $423 ]                 $130        I $482        I   $251     \    $ 783
            Fee-for-service Center I $323              1     $191        I $359I $101I !$1,124

II                 Contract Centers I $618             I     $130        I $641        I   $412     I    $950
II         Fee-for-service Centers I $426              I     $191        I $451        I   $144     I $1,124
     Contractcenters: n = 34 (one contractcenterexcludedfrom calculationsbecauseit was an extremeoutlier)
     Fee-for-servicecenters: n=62                                                              *** p < .01
                                                                                                    ****D < .001




                                                           A-1

                                                                                   Table 3

                                                                           Payments for CT Testing


:::.:,::.:.:,.:.
.:. .... ,~.,. ,.:,,
                 .:.,.:
                   .!.:::.;
                      .........
                         ..,...............
                                         ,,....,......
                                                  ,,,,,,,,,.,
                                                 ...       .,,,.,
                                                               .,.,.,
                                                                 .....,.:
                                                                      ... :::,
$F#m8m@P&GRtiii:                                                                   Mean     Standard    Median   Minimum   Maximum
                        ,..........,.
.......... .:.:.;.{,:.:.:.:.;,,.:.:
                     ....,            . ... ..<...   ,;:,:.:.::,
                                                           :...:, ,,::.,;,.:,.2::
                                                                              ;,.,
:mR@@BwM$@$;                                                               ~~ :;.           Deviation
                        Contract Centers                                           $2,044    $1,484     $2,167   $1,034    $ 8,117
           Fee-for-service Center                                        $1,522              $2,189         $     $ 631    $14,092
                                                                                                         1,579



                         Contract Centers                                $2,654              $2,101     $2,697   $1,218    $10,906
         Fee-for-service Centers                                         $1,871              $2,392     $1,875   $   728   $14,092
 Contractcenters: n = 35
 Fee-for-servicecenters: n=62                                                                                                *p <.10




                                                                              Table 4

                                                                  Retention at DR and CT Testing



 RETENTION RATEAT DR                                                       Mean             Standard    Median   Minimum   Maximum
  TESTING **                                                                                Deviation
                         Contract Centers                                68.4 %              10.9 %     74.6 %   46.9 %     92.8 %
           Fee-for-service Center                                        75.7 %              12.4 %     81.9 %    37.8 %   100.0 %
 lZETwTION RATEAT cT
 TESTING***
                         Contract Centers                                77.0 %              7.4 %      79.2 %    59.8 %    90.2 %
         Fee-for-service Centers                                         81.3 %              13.7 %     86.5 %    33.3 %   100.0 %
  Contractcenters: n = 35
  Fee-for-servicecenters: n=62                                                                                               ** p <.05
                                                                                                                           *** p < .01




                                                                                             A-2

                              APPENDIX                     B

                          METHODOLOGICAL                  NOTES


Allocation of Financial Costs

Cost-Based Contract Centers

In addition to their negotiated contract amounts, NMDP reimburses contract centers for
supplies for:

       DR sample Collection                 $10.00
       Confirmatory testing                 $17.50
       Infectious Disease tests             $90.00
       Research Samples                     $13.50
       Pre-Transphint Donor Sample          $13.50

Fee-for-Service Centers

These centers are paid as follows:

  �    File maintenance and support
       $25,000 for 1 FTE for every 20,000 donors; this is prorated, and computed
              monthly

  .    Recruitment Fees (per donor)
              White                         $10.00
              Minority                      $28.00
              Data Entry                    !$ 2.00

  .    Search	 Related Expenses
               DR Sample Collection                   $ 38.00
               DNA-DR contact                         $    15.00
               Confirmatory testing                   $ 100.00
               Information Sessions                   $ 200.00
               Physical Exam Coordination             $ 125.00
               Infectious Disease Test                $ 130.00
               Work-Up Coordination                   $1,500.00
               Work-Up Cancellation                   $ 500.00

To arrive at a comparable measure of staff costs, we equated costs between contract
centers and fee-for-service centers by deducting the supply costs paid to contract centers




                                            B-1

where appropriate.   Thus in fee-for-service centers, we determined staff related costs
follows:

              DR Sample Collection                  $28.00 ($38.00 minus $10.00)
              Confirmatory testing                  $82.50 ($100.00 minus $17.50)
              Infectious Disease Test               $40.00 ($130.00 minus $90.00)
              Work-up. Coordination                 $1,473.00 ($1500 minus $27.00
                                                          [$13 .5(I for research samples and
                                                   $13.50 for pre-transplant donor samples])


We made two adjustments in the financial data originally provided to us by the NMDPafter
discussions with staff there. One center (Center A) had been listed as fee-for-service that
actually was paid on a contractual basis. We were informed that the contract was
different from the usual NMDPcontract with these centers. However, we made the
judgement to include this center with the contract centers because it received payments for
the same types of service categories as did other contract centers. We also excluded from
the fee-for-service category payments made to another center (Center B) for scientific
research that was not directly related to donor center activities. We subtracted from the
fee-for-service totals the payments made to Center A and the research payments made to
Center B. We then added the payments made to Center A to the contract center group.

We excluded the Bill Young Marrow Donor Center from this analysis because it is part of
the U.S. Navy. This center has a unique focus on recruitment of U.S. Military Persomel
worldwide. Consequently, we consider issues related to operating costs to be substantially
different from the other centers in the program.

We tested statistical significance by measuring the differences of the means on cost,
recruitment, and retention variables, with the following formula:

 z = (p~-/.LJ +      <[(s12+n1-l)+(s~
                                  +n2-1)],
where PI = the mean and SI = the standard deviation for contract centers,
and p2 = the mean and S2 = the standard deviation for fee-for-service centers.

In calculating the cost per donor, per net new donor, and for DR testing, we excluded one
contract center, because it was an extreme outlier and significantly skewed the means and
standard deviations. This center had costs of $619.95 per new donor, $970 per DR
request made, and $1,869 per DR request filled.

Mail Survey

In July 1995 we mailed a survey to each of the 98 donor centers then in operation. We
received responses from 88, a 90 percent response rate. Because one of those centers has
since merged with another center, we chose to omit the responses of that center from our
analysis. We also do not include responses from the Bill Young Center in these tables.
In this report, we draw on the questions appearing on the following pages:


                                            B-2
donor center:                                                     I                   I





                                                               11               47         9

                                                             (37%)            (84%)
Physical plant (e. g., space)                                  18               48         8

                                                             (60%)            (86%)
Administrative support (e. g., secretarial, accounting)        14      16                  10

                                                             (47%)            (8;%)
Laboratory services (e.g., blood typing)                               16                  22

                                                             (47%)            (67%)
Other services @ease descn”be)                                 10               17

Source: OIG/OEI Survey of Marrow Donor Centers, July 1995

Non-responseto these questionswas coded as “No.” No response to these questionswas received

from one contract centers and 2 fee for service centers -





                                              B-3

Contract Centers
Staff
                          8               0               12               5       12              I    13     II
                              (40%)                           (60%)            (25%)          (10%)          (65%) 1
Physical plant
                 7               1               15               7              3              13
                              (30%)           (4%)            (65%)            (30%)          (13%)          (57%)
Administrativesupport
          7               0               14               4             0               17
                              (33%)                           (67%)            (19%)                         (81%)
Laboratory services
            3               1               17                2             5              14
                              (14%)           (5%)            (81%)            (lo%)          (24%)          (67%)
Other services
                 6               0               12               3              2              13
                              (33%)                           (67%)            (17%)          (11%)          (72%)
Total SUppOfi                   5               0               14               5              2              12
                              (26%)                           (74%)            (26%)          (11%)          (63%)
Source: OIG/OEI Survey of Marrow Donor Centers, July 1995
Non-responseto these questions is not included in frequenciesor percentages.




Fee-for-Service
Centers
Staff
                          14               5                30               10             6              33
                              (29%)            (10%)            (61%)            (20%)          (12%)          (67%)
Physical plant
                 6                 3               38                4             1              42
                              (13%)             (6%)            (81%)             (9%)          (2%)           (89%)
Administrativesupport
          11                2               35               8              3              38
                              (23%)             (4%)            (73%)            (16%)          (6%)           (78%)
Laboratory services
             9               5                27               5               4             32
                               (22%)           (12%)            (66%)            (12%)          (lo%)          (78%)
Other services
                  6                1               24               6              1              31
                               (19%)            (3%)            (77%)            (16%)          (3%)           (82%)
Total SUppOrt                   13                2               27               12                            28
                              (31%)             (5%)            (64%)            (27%)          (9’!%)         (64%)
Source: OIG/OEI Survey of Marrow Donor Centers, July 1995                                                                 II
Non-responseto these questions is not included in frequenciesor percentages.                                              II


                                                       B-4

                            APPENDIX                       C



   TEXT OF COMMENTS                        ON THE DRAFT REPORT




Health Resources and Services Administration     . . . . . . . . . . . . . . . . . . . . . . . C-2


National Marrow Donor Program.      . . . . . . . . . . . . . . . . . . . . . . . . . . . ..   C-6




Note: The Health Resources and Services Administration and the National Marrow Donor
Program provide combined comments on four draft reports that examined the National
Marrow Donor Program. This appendix includes only those portions of their comments
that are relevant to the report entitled “National Marrow Donor Program: Fimncing
Donor Centers. ”




                                           c-1
                                                                                             Health Resources and
                                           C!CT      ~ 3    lg~~
                                                                                              ServicesAdministration
                                                                                             Rockviile MD 20857



 TO:
              Inspector      General, DHHS

 FROM :
           Deputy Administrator


 SUBJECT :
        Office     of Inspector  General   (OIG) Draft  Repo-rts,
                   ‘tNational    Marrow Donor Program     (NMDP) :
                   1) Financing      Donor Centers 0EI-01-95-O0123
                   2) Proqress in Minority Recruitment 0EI-01-95-O0120                                                 “

                   3) Geo~raphic Overl’apkong Donor Centers

                      OEI-01-95-00122

                   4) Effectiveness in Retaining Donors 0EI-01-95-00121t~                                               ‘-



 Attached     is     HRSAfs         your memorandum
                                response        to                                 requesting
 comments     on the four subject draft reports.
We appreciate           the    OIG conducting               the    review,       ‘fBone    Marrow     Program
Inspection.”            The    draft  reports
                                were forwarded to the NMDP for
comment. Their comments have been incorporated into our
response. HRSA and NMDP will be performing further analysis and
examination regarding some issues, such as restructuring of donor

centers,      implementation         of     performance      indicators,      and
specification       of retention            rates,    before    specific    changes   are
made.       HRSA plans     to utilize           the findings      and recommendations
contained      im these      reports        as an integral        part   of the development
of the contract.

Questions       may be referred            to     D~irdre          Walsrh on     x35181.        ‘

                                                            k
                                                                       1“



                                                     J hn D. Maho            y
                                                y%




Attachment




                                                      c-2
                  Specific Comments on OIG Recommendations


 OIG Reuort:       Financinu Donor Centers OEI-01-95-O0123


 OIG   RECOKKENDATION:             that the National Marrow Donor
                               We recommend
 Program and the Health R@sources and Services Administration
 reexamine the method used to finance donor centers.
 We recommend two options  for             consideration.        These approaches
 could alleviate the problems              identified       in this report.

First, the progiam could move to a fee-for-service payment
schedule for all centers~ with incentives built in to reward
centers with high retention.         Such an approach  could build    on the
system   currently    in place~  with the important   addition   of a
mechanism    that  encourages   high levels  of donor retention.

Second, the program could consider a bid system.      Each donor
center would bid for and negotiate a competitive price which it
would be paid for recruiting donors to the registry and for
producing donors i.n response to requests for donation.     Any such
approach would also contain performance standards that the center
would be required to achieve.

we recognize that any such effort will take some time to develop,
and we urge the NMDP and HRSA to commence its development
immediately. Therefore, in addition to revising the payment
system, we believe that the following short term actions should

be undertaken.

�	     Replicate this analysis            at the close of the fiscal year
       ending April 30, 1996.

�	     Conduct a performance audit of centers that show continually
       high costs and low performance.

�	     Require centers to meet efficiency measures, such as those
       we used here~ and minimum effectiveness standards, such as
       retention rates or minority recruitment levels.

HRSA RESPONSE

HRSA agrees     that    there        is a need   to review       financing    methods,
reduce   the   number     of centers,        pay attention         to cost   containment,
and reduce     overhead       costs.      A careful      examination       of costs     for
contract versus fee-for-service centers needs to take into

consideration the complexity of this topic. Additional factors,

such as age of centers, size of donor files, proactive versus

reactive recruitment strategies, association with recruitment

groups, and variability in overhead costs among contract centers

need to be taken into consideration in the analysis of fee-for-

service versus cost reimbursement contracts. Other factors

affecting costs need to be considered in a multivariate analysis

                                             L-5
 before concluding that the method of reimbursement is solely

 responsible for the differences in costs.

 Furthermore,      cost    contracts      may require      that    resources        be devoted
 to the creati-on       of standard       operating     procedures        and more
 elaborate    auditing      practices       for government       contract       compliance.
 In addition,      a number      of the fee-for-service            centers      had a
 portion    of their     expense      covered     by their    parent      organizations,       a
 situation    that    may not continue          given   financial challenges facing
 blood centers. Notwithstanding these concerns, HRSA recognizes
 that the type of reimbursement has an important impact on costs.
 In addition, an examination of the payment schedules should not

 be limited to recruitment and retention. The number of

 transplants, properly typing donors, recruiting minority donors,

 completing search processes promptly, and containing costs are

 also important performance concerns.

 HRSA agrees          that     future      reimbursement          should    be based      upon
 performance         criteria.           Explicitly        defining      such  cr~terla        for
 donor     centers        will    be difficult         in light        of the  varied      practices
 and the      variability           inherent        in recruiting        and retaining
 volunteer        donors.

NMDP stated that the dual reimbursement system was implemented at
the behest of the National Heart, Lung, and Blood Institute.
Since     it   was implemented,           discussions         regarding       whether       i.t
represents       an optimal        system      have    been     ongoing.        There     was

concern    that     the   conclusions          reached      about     performance         of

contract     versus     fee-for-service             centers      did    not   take    into      account

many differences          between       the two types of centers. A comparison
of costs for contract centers versus fee-for service centers may

oversimplify a very complex topic and numerous factors need to be

considered in a multivariate analysis before concluding that the

method of reimbursement is responsible for the differences in
costs . These factors include the age of the donor file, the
proportion of minority donors and whether recruitment is passive
or proactive.

The NMDP staff has recently collected new information about donor

center-specific cost effectiveness by consolidating data obtained

from Continuous Process Improvement indicators and the Search

Tracking and Registry system. When complete, this analysis

should provide additional information to make decisions regarding

financing of donor centers.

HRSA agrees        that    reexamining the method    used to finance       donor
centers     and the      configuration   of the  network  ‘Jill   take   some time.
Since   the    financing       mechanism is only  one of the issues (others
being geographic ov~rlaPr minoritY recruitment                  ~etention~     and
donor center         Stablllty),        it would be preferable to emphasize the



                                                   c-4
                                         ~.


 re-examination aspect of the recommendation rather than the sole

 goal of revising the payment system.

 HRSA agrees   that the analysis conducted by the OIG ought to be
 replicated,   but does not &oncur with the requirement that this
 analysis   be replicated April 30, 1996. HRSA suggests that the OIG
 conduct  the analysis at the close of the fiscal year ending April
 30, 1997 or 1998 to allow NMDP sufficient time to implement
 changes. There is simply insufficient time for any changes to
 have taken place.     HRSA is considering conducting this analysis

 at the close of the fiscal year ending   April 30~ 1997 or 1998 to
 allow the contractor sufficient time to implement changes.
HRSA concurs that a performance audit might be advisable. HRSA

and the contractor will develop procedures for conducting a

performance audit of donor centers and a plan for implementing

performance audits throughout the network during the next

contract period, beginning May, 1997. HRSA recommends the

following modification:

        HRSA and the contractor should develop procedures for

        conducting a performance audit of donor centers and a plan

        for implementing perfo~ance audits throughout the network.

HRSA agrees that reviewing efficiency and effectiveness of donor

centers is important, but HRSA, the contractor, and the donor
centers      need   to reach    ~ Consensus    on these     measures   and methods
to implement        them.    Therefore,     HRSA suggests     the following
modification:

       We recommend      that   HRSA collaborate       with   the contractor      to
       develop  efficiency       measures    and   procedures     for requiring
       centers to meet them.


TECHNICAL COMMENTS

NMDP notes that the actual amount paid to contract centers for

work performed during FY ’95 was $10.5 millioni not $11.8 million

as stated and that the amount paid to fee-for-service centers was

$2.7 million, not $2.9 million.





                                          c-5
                                                               . ,.




            Nxtimd Marrow
                                             September 4, 1996

             Donor Prugmm
    NationalCootinatinc Ccnhx
       MSS mmriwiiysme( NE
                                Suite 500
           Mjnnqn{is.       ~       5541 ~
                     612-G27-$5M)            Judith Braslow

                   1.lUX)-52b-7~)
                FAX: 61>627.5gW              Director, Division of Organ Tranmiantation

                                             Health Resources and S.emiccs A&ninistraticm

                Board   ofDircdom            Park Lawn Building

    Herbert A. Perkinx, M.D., C.huir         5600 Fishers b.ne - Room 729

     Jondrun R Leong, KCCChair
             C]MBPadilli Andrcws             Rockville, MD 20857

            I?ichmd H A$ter. M.D.
            Lauccncc D. Atlas, J-l).
               Jnwph ‘C BclL M.D.            i)ear

                                                 Ms. B!’adow:

           B(JDupon[, AM.D.,O..k
             Rogcr W. I?WUWWD.
          Bart S. E%her.J.D.. Ph.D.          Thank you very much for providing the Natiord Marrow Donor

         Dovid B. Frohnnmycr. J.IJ.          Program@ (NMDP) with an opportuni~ to review the draft reports of the

            J, Cunyrm Gordon. J.D.
              John A. 1{.tmen.M.D.           Office of hs~tor   tied     (OIG), Depa~eti   of Heah.h and Human

‘rcdmckJ. Harris. M.S.F.E. M.B.A.            Services. The draft reports were sent to members of the Minori~ Affairs,

  . bfJry M. Hnrtiu- M.D.. M.S,
                Er-mtR. JiI!K. M.D.          Membership and Prmss Improvement, Donor Recruitment and Executive

            Naocy A. Kcmu M.D.               Committees as well as the NMDP’s Network Evaluation Advisory Panel

              Sussn izitmun. MD.
Nicholx+J. Ncuhnusd. J.D.. M.S.M.
                                             and setecti members of the staff.

               ml-      PIIgC.
                             Mll
           ChdG A. (CAP) Pdier               The comments received have been collared and a synthesis of the

       r-    PUWXM M.D.. ~.D.
                                             responses is presented below. The i.utent of the NMDP is not to criticize

      LL Gcn. F~k E. P~cr= Jr-
              Kobl K. Row M-D.               the draft repo~, but rather to add information from a variety of

             &jw,wd i? .%xmLM.D.
           Mid   F. Srronc.k MD.
                                             respondents, M of whom have been invoivti with aspects of donor center

          Jdrn S. 77turoPwxt.M-O-            operations  and/ordonorrecruitment.
   As you know theNMDP iswell

           chartcs H. WSIIIIS.M.D.           alonginits   own analysisofdonorcenter   functions,thefidings
  ofwhich

             !ltewm N. WrlIT. Ml).
Aotrune[k K YmxY. M.D., MJ’-H.               should     further
                                                  provide        recommendations.

                                                             usefhl

        @niral & k firnwnk k.

    CiaQ W S. Hr)w% M.D.. Ph.D.
                                             Following

                                                     theSLly    of comments on each draft qort we have .
            Ur&fJ2rculivr         O@cf              ourown list
                                             provided         ofrecommendations  formodification of the OIG
                                             document.
                    ~mirs F3neritrw
         Rnhcrt C. Owes. D.V.M.
        Adnrird E. R. Zumwdt. Jr.            Fmcing DonorCenters


            LauFJ G-            Awx~:              You should    beawarethattheactual
   amountpaid to contract
 l?tc HnmwnlJlcC. W. %11” Ycurtg
           John A. Hm.c% M.~­
                                                   ccntcrs for work performed during our f~cal year, 1995 was $10.5

             (hude fxnfunLMD.                      rnillio~ not $11.8 million as stated. Similarly, the amount paid to

                                                   the fee-for-senfice donor centers during the same period was $2.7

      A collutxrrutim effoft of the                million not $2.9 milIion.



           Amwinut      Red CrOm

         coancil	   of Commonity
                     BlooriCen@fi
             With funding from
   Hcshh RIWUKCS and Scwims
             Admimfitition  and
     Navai Medical March nnd
         DCWILlpment
                 CommiMd
 since the impiernetition     Seved ye~ agoofa d~l refibu~~entm-hanism, at the
behest of ~ Natiomi ~e~, LUU, ~ Blood ~tu~,                   dis~slo~      ~gtiing     whether
this repre$en~s an optirna~ sys~m have -         ongoing. ReSPOIMMto W OIG drafi
report on “Financing ~Onor centers” inclw            concerns about f-~s       m were not
included in tic amlys~ of f=-for-syvice VCrSUS          Comet =~r      PC~OrRMU=. Specific
factors feit to be @o~.         but not included are age of tie ce~r,     sue of the donor
file, proactive (felt- to be mom c~~y) versu ~ctive ~~~ltm~t             stm~gies, association
(or lack thereof) with mcrmtment groups and variablhty m overhead costs among the
contrac~ centers. WVeral ~ponde~           ~i~ti      tit by tiu@       mi~rity recruitment
WaS more costly becau it fmw~tly invoiv~ a l~gm ~mwn~t                     of c~muni~-baaed
education which did not immedjatily translate into vol=n            r~~it~      (but would
likely yield long-te~ -~itment        ~~fits).    It WaSnod m witi cost contracts -e
extra expenses in tie fo~ of r~~s            dcv~~ tO tie ~~tion ofs~               opc~@
procedures and more elaborate auditing practices necessary for government contract
compliance.

It   was   dso   mentioned     on SeWd      OCGISiOnS tbt      a t)~k      Of the f&-fOr-W~iCe       C&te~
had a      portion
                 of    the:r expms=           parent
                                         covered     organizations.
                                                    by their         And whileitwas
feltthat b co~~cnt Was stable      inthe*dtite ~m, ti=ewasuncertainty
         for
tiefuture
offee-for-seni= centers based upon the financial challenges to blood
centers.
III summary, there was concern that the conclusions reached about performance of
contract versus   fee-for-servi= centers were based upon an “apples and oranges”
Wlnparison because of the many differences rx)t taken into account when comparing the
two types of centers. There was agreement with the draft report regarding the concept
of future reimbursement based upon performance criteria, although it was rccognizd
that explicitly defi~      sufi CritCria for donor cerxters would be d~cult in light of the
varied practices and the variability inherent in recruiting and retaining volunteer
donors.

The NMDP staff has recently colIected new information about donor center-specific
cost effectiveness by consofi&ting data obtained from continuous process improvement
indicators and the Search Tracking and Registry system. When complete, this analysis
shouici provide a more rafioml bask for financial suppoti of donor centers.

Recommended Mti!cationstotheDraftReport:
c          The nqmrt shmld make clear that a comparison                 of costs for contract cen~rs
           versus fee-for-servicz centers may oversirnpiifi             a very complex topic in that
           numerousother    factorsaffecting costs                 in a multivariate
                                                 needtobeconsidered

           analysis before concluding that the methodofreimbursementk responsible
 for

           thedifferences  incosts. Thesefactors  include            theageofthe

                                                        (amongothers)

           donorfile  (theearlierrecruited, thelowertheretention),
                                                                theproportion
 of
           minority   donors   (higher   costs),   and whether    recruitment   is proactive     or passive.




                                                       c-7
            �	         If it proves to be true thht fce:for-service is more cost effective. this may &lt
                       horn the fact that fec-for-servxx   centers receive additional f-id       support
                       from    their parent    organizations-a       situation   urdikdy       to continue    in these days of
                       cost constraints.

we uc hdy              embark~      upon c~nIi~ing         tie   effo~   be-       wi~   -se      OIG   ~      =po~.           ~
own detaild        Cval=tion      of COSE to =~jt          don~rs    and rerneve     ~@IY      for donation   is well       under
way. The effecti of geu~phlc overl~=       be~ e~almtiby ourNetwork Evaluation
Advisory Panei and by several cormnittces. Minority rcauitment approaches and donor”
retention are areas of high Co=m, ~ing ad~s=d by OIU Minority M*         Committee, the
DonorRecruitnmt CommitC@%and tie Matimip           @ Process Improvement Committee.

llese   are ail high priotiw it-              for 0~ BOWd of Dtirs,                which will be reviewing these
documents        at its regular   meeting     in several   weeks.

We kme that YOU fi~ t.h=e   wmme~            l%e NMDP thanks you for shariniz these &aft
                                       helpfil.

qom” and lck forward to a continuing collaboration in improving all aspects of-donor
center and recruitment group operations.




                    OWC,M. D., Ph.D.	                                Herbert A. Perkins. M.D.                           “
                                                                     NMDP Board Chair




                                                      C-8

                              APPENDIX                     D



                                      ENDNOTES


1. National                TheLiving
         MarrowDonorProgram,
                      Gijl of Lije.

2. Bone Marrow Transplants - A Book of Basics for Patients (reprinted by NYSERnet,
Inc. with permission from BMT newsletter), chapter 4, pp. 35-36.

3.42 U.S.C. $274k(b)(l)-(7)

4.	 In addition to their negotiated contract amounts, NMDPreimburses contract centers for
supplies for:

       DR sample Collection                 $10.00
       Confirmatory Typing                  $17.50
       Infectious Disease tests             $90.00
       Research Samples                     $13.50
       Pre-Transplant Donor Sample          $13.50.

5.	 The NMDPreimburses fee-for-service centers for search related expenses as follows:
            DR Sample Collection                 $ 38.00
            DNA-DR contact                       $    15.00
            Confirmatory Typing                  $ 100.00
            Information Sessions                 $ 200.00
            Physical Exam Coordimtion            $ 125.00
            Infectious Disease Test              $ 130.00
            Work-Up Coordination                 $1,500.00
            Work-Up Cancellation                 $ 500.00.

6. Eighty-six percent of fee-for-service centers reported that their parent institution
provides financial support for space (vs. 60 percent of contract centers); 82 percent for
administrative support vs. 47 percent), and 61 percent for laboratory services (VS.47
percent).

7. Excluding the U.S. Navy’s Bill Young Marrow Donor Center.




                                            D-1

